No. 19-831

In the
Supreme Court of the United States
ɔɔɔɔɔɔɔɔɔɔɔɔɔiɔɔɔɔɔɔɔɔɔɔɔɔɔ
ADAM JARCHOW AND MICHAEL D. DEAN,
Petitioners,
v.
STATE BAR OF WISCONSIN ET AL.,

Respondents.
ɔɔɔɔɔɔɔɔɔɔɔɔɔiɔɔɔɔɔɔɔɔɔɔɔɔɔ
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit
ɔɔɔɔɔɔɔɔɔɔɔɔiɔɔɔɔɔɔɔɔɔɔɔɔɔ

BRIEF AMICUS CURIAE OF THE BUCKEYE
INSTITUTE IN SUPPORT OF PETITIONERS
ɔɔɔɔɔɔɔɔɔɔɔɔiɔɔɔɔɔɔɔɔɔɔɔɔɔ
John J. Park, Jr.

Counsel of Record for
Amicus Curiae

616-B Green Street
Gainesville, GA 30501
(470) 892-6444
jjp@jackparklaw.com

Robert Alt
President and CEO
The Buckeye Institute
88 East Broad Street
Suite 1300
Columbus, OH 43215
(614) 224-4422

i
QUESTION PRESENTED
In Janus v. AFSCME, 138 S. Ct. 2448 (2018),
the Court held that State laws compelling public
employees to subsidize the speech of labor unions
violate the First Amendment, overruling Abood v.
Detroit Board of Education, 431 U.S. 209 (1977). The
same improperly “deferential standard” that Abood
espoused underpins the two decisions of the Court—
Lathrop v. Donohue, 367 U.S. 820 (1961), and Keller
v. State Bar of California, 496 U.S.1 (1990)—
permitting States like Wisconsin to compel attorneys
to be members of an “integrated bar” and fund its
speech and advocacy on matters of substantial public
concern. Accordingly, the question presented is:
Whether Lathrop and Keller should be
overruled and “integrated bar” arrangements like
Wisconsin’s invalidated under the First Amendment.

ii
TABLE OF CONTENTS
QUESTION PRESENTED

i

TABLE OF CONTENTS

ii

TABLE OF AUTHORITIES

iii

INTEREST OF AMICUS CURIAE

1

SUMMARY OF ARGUMENT

2

ARGUMENT

.3

I. Introduction…………………………………….3
II. Janus applies to integrated
bar organizations like the Wisconsin
State Bar...........................................................5
III. Thirty years of experience
with Keller shows that it is no more
deserving of continued respect than Abood......7
A. Speech regarding improving the quality
of legal services, like collective bargaining,
is inherently political........................................7
B. The Hudson remedy is inadequate.............15
IV. Neither Keller nor Lathrop are
essential to the unified state bars’
performance of their core functions...............17
CONCLUSION

20

iii
TABLE OF AUTHORITIES
Cases
Abood v. Detroit Board of
Education, 431 U.S. 209 (1977)……….........passim
Chicago Teachers Union, Local No. 1 v.
Hudson, 475 U.S. 292 (1986).........................6,7,15
Friedrichs v. California Teachers Association,
136 S. Ct. 1083 (2016)............................................2
Gardner v. State Bar of Nevada,
284 F. 3d 1040................................................ 14,15
In re Petition for a Rule Change to
Create a Voluntary State Bar of
Nebraska, 841 N.W. 2d 167 (Neb. 2019).............18
Janus v. AFSCME, 138 S. Ct. 2448 (2018)…...passim
Keller v. State Bar of California,
496 U.S. 1 (1990)……………………………...........passim
Kingstad v. State Bar of Wisconsin,
622 F. 3d 7086 (7th Cir. 2010)................................14.15
Lathrop v. Donohue, 367 U.S. 820 (1961).................passim

Lehnert v. Ferris Faculty Ass’n,
500 U.S. 507 (1991)..............................................14
Roberts v. United States Jaycees,
468 U.S. 609 (1984)........................................................4

iv
Romero v. Colegio de Abogados de Puerto
Rico, 204 F. 3d 291 (1st Cir. 2000)...........................15
Uradnik v. Inter Faculty Organization,
et al., No. 18-719, in the
Supreme Court of the United States.....................2
Wooley v. Maynard,
430 U.S. 705, 714 (1977)........................................4
Rules
37.2

1

37.6

1

Other Authorities
Appendix., Fleck v. Wetch, No.19-670,
in the Supreme Court of the United States..........16
Brief Amicus Curiae Family Law Section
of Nevada State Bar, Case No. 48944,
in the Supreme Court of the State of Nevada.......12
Brief of the Missouri Bar as Amicus Curiae
in Support of Appellees and Affirmance,
Fleck v. Wetch, Case No. 16-1564,
in the Eighth Circuit Court of Appeals...............13
Court Asked to Stop Family Law Section’s
Gay Adoption Amicus (Mar. 15, 2019)................11

v
Lean, Rachel, Florida Bar’s Business
Law Section Urges High Court to Ease
Summary Judgment Standard, Law.Com
(Dec. 31, 2019).......................................................12
Florida Bar Master List of Legislative
Positions 2018-2020..............................................10
Moran, Lyle, California Split: 1 Year
After Nation’s Largest Bar Became
2 Entities, Observers See Positive
Change, ABA Journal, Feb. 2019)........................18
Proposed Comments of the Labor
and Employment Law Section of
the District of Columbia Bar
on Support for “D.C. Civil Rights Tax
Fairness Act of 2001) (Bill No. 14-321).................10
Smith, Bradley A., The Limits of Compulsory
Professionalism: How the Unified
Bar Harms The Profession,
22 F.S.U. L. Rev. 35 (1994)…….....................passim
Summary of Amicus Curiae Brief by the
D.C. Affairs Section in Banner,
et al. v. U.S., Before the Supreme
Court of the United States....................................12
Summary of Public Statement of
the Litigation Section of the District of
Columbia Bar Opposing the Mayor’s
Recommendation to Cut $1 Million in
Civil Legal Services and Loan
Forgiveness Funding............................................10

1
INTEREST OF AMICUS CURIAE
This amicus brief is submitted by The Buckeye
Institute (the “Buckeye Institute”). 1 The Buckeye
Institute was founded in 1989 as an independent
research and educational institution—a think tank—
to formulate and promote free-market solutions for
Ohio’s most pressing public policy problems. The staff
at The Buckeye Institute accomplishes the
organization’s mission by performing timely and
reliable research on key issues, compiling and
synthesizing data, formulating free-market policies,
and marketing those public policy solutions for
implementation in Ohio and replication across the
country. The Buckeye Institute is located directly
across from the Ohio Statehouse on Capitol Square in
Columbus, where it assists executive and legislative
branch policymakers by providing ideas, research,
and data to enable the lawmakers’ effectiveness in
advocating free-market public policy solutions. The
Buckeye Institute is a non-partisan, nonprofit, taxexempt organization, as defined by I.R.C. § 501(c)(3).
Through its Legal Center, the Buckeye
Institute works to protect the First Amendment
Pursuant to Rule 37.2, all parties were notified of the Buckeye
Institute’s intention to file this brief at least 10 days prior to its
filing. All parties consented to the filing. Pursuant to Rule 37.6,
Amicus Curiae affirms that no counsel for any party authored
this brief in whole or in part, and no counsel or party made a
monetary contribution intended to fund the preparation or
submission of this brief. No person other than Amicus Curiae or
their counsel made a monetary contribution to the brief’s
preparation or submission.
1

2
rights of union workers who object to being forced to
subsidize union speech with which they disagree. In
support of this aspect of its work, Buckeye filed
amicus briefs on the merits in support of the
petitioners in both Friedrichs v. California Teachers
Association, Case No. 14-915, in the Supreme Court
of the United States, aff’d by an equally divided court,
136 S. Ct. 1083 (2016), and in Janus. Moreover, since
Janus, Buckeye has challenged compulsory
representation laws as violative of the First
Amendment rights of public-sector employees. See,
e.g., Uradnik v. Inter Faculty Organization, et al., No.
18-719, in the Supreme Court of the United States,
cert. denied (Apr. 29, 2019).
SUMMARY OF ARGUMENT
In 1994, Professor Bradley Smith, observed,
“[I]f ever there were advantages to the unified bar,
those advantages no longer exist.” Bradley A. Smith,
The Limits of Compulsory Professionalism: How the
Unified Bar Harms the Legal Profession, 22 Fla. L.
Rev. 35, 37 (1994) (“The Limits of Compulsory
Professionalism”). He wrote shortly after this Court
purportedly put integrated bar organizations out of
the business of using their members’ dues for political
or ideological purposes. Keller v. State Bar of
California, 496 U.S. 1 (1990).
Keller has now been in place for 30 years, and
First Amendment jurisprudence has been clarified in
that time, cutting the jurisprudential and logical
foundations from under it. In particular, this Court
reversed Abood v. Detroit Board of Education, 431
U.S. 209 (1977), on which the Keller Court relied, in

3
Janus v. AFSCME, 138 S. Ct. 2448 (2018). Along the
way to Janus, the Court made it clear that the
standard of review is more rigorous than the test
applied in Keller, that deterring free ridership is not
a compelling interest that will justify the compelled
subsidization of speech, and that Abood was flawed in
other ways. The key precedent relied on in Keller has
been overruled, and history has further proven that
the distinction relied upon by Keller between
activities germane to improving the quality of legal
services and “activities of an ideological nature” is
unworkable because speech about improving legal
services is inherently political and touches on issues
of public concern about which people can and do
disagree. Keller and Lathrop should accordingly be reexamined and overruled.
ARGUMENT
I. Introduction
The Jarchow Petitioners contend that both the
requirements that they join the Wisconsin Bar and
that they subsidize its political speech violate the
First Amendment. In this brief, Buckeye will show
that this Court has treated the integrated bar
similarly to a union for years, so Janus applies to it.
Then, Buckeye will show how, notwithstanding
Keller’s injunction, unified bars are engaged in
lobbying and filing amicus briefs on political and
ideological issues as to which reasonable people can
and do disagree. Those unified bars justify that
activity as the pursuit of the anodyne, yet expansive,
notion of improving the quality of legal services. The
way out of the Keller wilderness in which lawyers

4
have wandered for 30 years lies in bifurcating the bar,
splitting it into a voluntary association that is not
bound by Keller and a mandatory regulatory body.
Only lawyers in some, but not all States, must
join the state bar association as a condition to their
practice of law. Other professions require a license to
practice, but nothing requires them to join an
association. Professor Bradley Smith explains,
“Doctors are not required to join the medical society,
nor dentists the dental association. Certified public
accountants, veterinarians, and architects are free to
join, or refrain from joining, their respective
professional
organizations.”
The
Limits
of
Compulsory Professionalism at 36.
Put differently, it is only in some States that
lawyers are obligated to join the bar association and
have the bar association speak for them, subject to
blurry and ill-defined limits. The result is a First
Amendment outlier.
This Court, though, has declared, “Freedom of
association . . . plainly presupposes a freedom not to
associate.” Roberts v. United States Jaycees,468 U.S.
609, 623 (1984). Likewise, this Court “has held time
and again that freedom of speech ‘includes both the
right to speak freely and the right to refrain from
speaking at all.’” Janus, 138 S. Ct. at 2643 (quoting
Wooley v. Maynard, 430 U.S. 705, 714 (1977)). The
unified bar takes the freedom not to associate and the
freedom not to speak from lawyers in States like
Wisconsin, where such membership is required.

5
II.
Janus
applies
to
integrated
bar
organizations like the Wisconsin State Bar.
In The Limits of Compulsory Professionalism,
Bradley Smith noted that, viewed organizationally,
an integrated bar might be a private association, a
state agency, or a professional union. 2 This Court’s
jurisprudence and other considerations show that,
contrary to the contention of some unified bar
associations, an integrated bar operates more like a
professional union than the other alternatives.
In Keller, the Court unanimously rejected the
California State Bar’s contention that it was a state
agency and was entitled to be treated as such. It
noted, “The State Bar of California is a good bit
different from most other entities that would be
regarded in common parlance as ‘government
agencies.’” 496 U.S. at 11. The Court explained that
its funding came from dues payments, not from
appropriations, and its membership was limited. In
short, “The State Bar of California was created, not to
participate in the general government of the State,
but to provide specialized professional advice to those
with the ultimate responsibility of governing the legal
profession. Id. at 13.
In contrast, “[t]here is . . . a substantial analogy
between the relationship of the State Bar and its
members, on the one hand, and the relationship of
employee unions and their members, on the other.”
The private association model doesn’t work because the State
compels lawyers to join the bar organization in order to practice.
The State could simply require a license to practice without
mandating the tie-in of a mandatory association membership.
2

6
Id. at 12 (emphasis added). By requiring lawyers to
join the bar, the organization precluded free
ridership, just like other unions do. The Court saw
nothing wrong with this: “It is entirely appropriate
that all of the lawyers who derive benefit from the
unique status of being among those admitted to
practice before the courts should be called upon to pay
a fair share of the cost of the professional involvement
in this effort.” Id. at 12.
The consequences that followed from
characterizing integrated bar organizations as
professional unions were familiar ones. First, the
Court rejected the California State Bar’s argument
“that it is not subject to the same constitutional rule
with respect to the use of compulsory dues as are
labor unions representing public and private
employees.” Id. at 13. Instead, consistent with and in
reliance on Abood, the bar organization was not
permitted to spend its members’ dues on “activities
having political or ideological coloration which are not
reasonably related to the advancement” of its
legitimate goals. Id. at 15. And, where the integrated
bar spent dues on nongermane political or ideological
activities, the remedy was to be determined using the
Hudson procedures. See Chicago Teachers Union,
Local No. 1 v. Hudson, 475 U.S. 292 (1986). The Court
explained, “We believe an integrated bar could
certainly meet its Abood obligation by adopting the
sort of procedures described in Hudson.” 496 U.S. at
17.
The application of Abood to integrated bar
organizations has further consequences given this
Court’s criticism of and ultimate reversal of Abood.

7
Those actions mandate the reversal of Lathrop and
Keller.
III. Thirty years of experience with Keller
shows that it is no more deserving of continued
respect than Abood.
In the 30 years since Keller, the integrated bars
were supposed to have refrained from spending dues
on political or ideological activities and were required
to provide rebates to lawyers when they go too far.
But this solution has proven to be unworkable in
practice. Speech by state bars concerning the
improvement of legal services is, like speech in publicsector collective bargaining, inherently political. Even
when an integrated bar does not take positions on
what may be characterized as hot-button
controversies, the positions advocated by integrated
bars regarding improving legal services touch on
matters of general public concern and involve
questions upon which reasonable people may and do
disagree. In short, the problem of line-drawing is
insoluble, and the Hudson remedy is not a solution.
A. Speech regarding improving the quality of
legal services, like collective bargaining, is
inherently political.
In Janus, this Court explained that the union
speech paid for by agency fees addressed both
budgetary and other important issues, all of which
had political implications. Collective bargaining over
the level of employee compensation and benefits took
place against a backdrop of serious budgetary
problems. “The Governor, on the one side, and publicsector unions on the other, disagree[d] sharply over

8
what to do” about the problems with underfunded
pensions and healthcare benefits for retirees. 138 S.
Ct. at 2475. Union speech in collective bargaining also
addressed issues like “education, child welfare,
healthcare, and minority rights, to name a few.” Id.
Speech regarding education, for example, “touches on
fundamental questions of education policy”:
Should teacher pay be based on seniority, the
better to retain experienced teachers? Or
should schools adopt merit-pay systems to
encourage teachers to get the best results out
of students? Should districts transfer more
experienced teachers to the lower performing
schools that may have the greatest need for
their skills, or should those teachers be allowed
to stay where they have put down roots? Should
teachers be given tenure protection and, if so,
under what conditions? On what grounds and
pursuant to what procedures should teachers
be subject to discipline or dismissal? How
should teacher performance and student
progress be measured—by standardized tests
or other means?
Id. at 2476. This Court concluded, “[T]he union speech
at issue in this case is overwhelmingly of substantial
public concern.” Id. at 2477.
In the same way, bar lobbying and legislative
assistance, even on what Keller characterized as core,
putatively germane issues for the bar like “improving
the quality of the legal services available to the people
of the State,” Keller, 496 U.S. at 14 (quoting Lathrop,
367 U.S. at 843 (plurality opinion)) involve matters

9
of “substantial public concern” and are inherently
political. Janus, 138 S. Ct. at 2477.
Thus, not in spite of Keller, but rather because
of the error committed by Abood and perpetuated in
Keller, unified bar associations have engaged in
speech that is purportedly germane to the
improvement of legal services, but like public-sector
collective bargaining speech, is inherently political as
well. The solution accordingly is not to tinker with the
line drawing exercise engaged in by the Keller court,
but to recognize that the First Amendment requires
that any expenditures in support of such speech to be
engaged in voluntarily, with prior affirmative
consent. Janus, 138 S. Ct. at 2486.
There
are
numerous
examples
that
demonstrate how integrated bar expenditures
putatively aimed at improving legal services are
inherently political or ideological. As Professor Smith
observes, supporting the provision of free legal
representation to tenants in eviction fights or other
landlord-tenant legal disputes would increase the
availability of legal services. Even so, “many bar
members may staunchly oppose such a position,” and
an “ideological debate every bit as real as the bar
taking a position on a ‘substantive’ issue such as rent
control itself” could result. The Limits of Compulsory
Professionalism at 53.
Unified bar associations have engaged in
lobbying regarding taxation and the spending of
public funds that go to the very heart of the kinds of
compulsory political speech rejected in Janus. The
Labor and Employment Section of the District of
Columbia Bar filed a comment in support of the

10
District of Columbia Civil Rights Tax Fairness Act of
2001, which would have eliminated income taxation
of emotional distress damages in discrimination
lawsuits. See Proposed Comments of the Labor and
Employment Law Section of the District of Columbia
Bar on Support for “D.C. Civil Rights Tax Fairness
Act of 2001) (Bill No. 14-321), available at
https://www.dcbar.org/communities/labor-andemployment-law/upload/2001-Civil-Rights-FairnessAct-of-2001.pdf. The Litigation Section of the D.C.
Bar publicly opposed the Mayor’s recommendation to
cut $1 million in civil legal services and loan
forgiveness funding, and the Florida Bar supports
legislation that would provide student loan assistance
for government and legal aid lawyers who have served
in that capacity for three years. 3 Florida also supports
adequate funding of and opposes cuts to the funding
of the Legal Services Corporation and supports
“adequate funding for civil legal assistance to
indigent persons through the Florida Civil Legal
Assistance Act.” 4 “To suggest that speech on such
matters is not of great public concern—or that it is not

See Summary of Public Statement of the Litigation Section of
the District of Columbia Bar Opposing the Mayor’s
Recommendation to Cut $1 Million in Civil Legal Services and
Loan Forgiveness Funding, available at https://www.dcbar.org
/communities/public-statements.cfm (Summary of Public
Statement); see also Florida Bar Master List of Legislative
Positions
2018-2020
(Master
List),
available
at
https://floridabar.org/member/legact/legactoo3/#blse.
3

4

See Master List.

11
directed at the public square—is to deny reality.”
Janus, 138 S. Ct. at 2475 (internal citation omitted). 5
In other case, integrated bars have engaged in
speech that historically has been considered more
political, even under the terms outlined in Keller. The
Louisiana Bar has advocated for a state employment
non-discrimination act and for requiring public-sector

In many states, the sections of the state bar are opt-in. That
allows subsets of the bar to take controversial positions which
the Bar may or may not stand behind. When, for example, the
Litigation Section of the District of Columbia Bar issued a public
statement opposing the Mayor’s proposal to cut $1 million in
funding for civil legal services and loan forgiveness, the D. C. Bar
stated that the Section’s action did not reflect the views “of the
D,C. Bar or of its Board of Governors.” See Summary of Public
Statement.
5

For its part, the Florida Bar opposed some lobbying
efforts proposed by the Family Law Section “because it would
cause deep philosophical and emotional divisions among a
significant portion of the Bar’s membership.” Court Asked to
Stop Family Law Section’s Gay Adoption Amicus (Mar. 15,
2019),
available
at
https://floridabar.org/the-florida-barnews/court-asked-to-stop-family-law-sctions-gay-adoptionamicus. Outside counsel for the Florida Bar said the Board of
Governors did not have to approve the filing and did not endorse
the Section’s position. He stated, “The Florida Supreme Court
has recognized in the past that sections can engage in political
ideology that the Bar cannot.” Id.
Allowing optional sections of the bar to take ideological
positions that the bar cannot transparently end-runs Keller.
Only truly voluntary groups of lawyers, not subsets of unified
bars, should be permitted to stake out such positions.

12
contractors to comply with the Louisiana Equal Pay
for Women Act. 6
The D.C. Bar, the Florida Bar’s Business Law
Section, the Family Law Section of the Nevada Bar,
the Missouri Bar, and the Arizona Bar have all filed
amicus briefs on public issues on such subjects as nonresident taxation, LGBTQ rights, and other issues as
to which people can and do disagree. 7 Cf. Keller, 496
U.S. at 5 and n. 2 (identifies “[filing amicus curiae
briefs in cases involving the constitutionality of a
victim’s bill of rights; the power of a workers’
compensation board to discipline attorneys; a
requirement that attorney-public officials disclose
names of clients; [and] the disqualification of a law
firm” as a bar activity “to advance political and
ideological causes” as one of the Keller Petitioners’
complaints). More particularly, the Missouri and
Arizona Bars have filed amicus briefs in support of
unified bar associations against attacks like those of
6

See lsba.org/Legislation/.

See Summary of Amicus Curiae Brief by the D.C. Affairs
Section in Banner, et al. v. U.S., Before the Supreme Court of the
United
States,
available
at
https://ww.dcbar.org
/communities/district-of-columbia- affairs/upload/2006- AmicusCuriae.pdf; Rachel Lean, Florida Bar’s Business Law Section
Urges High Court to Ease Summary Judgment Standard,
Law.Com (Dec. 31, 2019), available at https://law.com
/daily/businessreview2019/12/31/florida-bars-businesslawsection-urges-high-court-to ease-summary-judgment-standard/;
and Brief Amicus Curiae Family Law Section of Nevada State
Bar. Case No. 48944, in the Supreme Court of the State of
https://willicklawgroup.
Nevada,
available
at
com/wp=content/uploads/2010/04/Hedland-Amicus-Brief.pdf
7

13
Petitioners. 8 In each case, there are lawyers and
citizens who disagree with the positions taken by the
unified bars in their states.
Attempts
to
solve
the
constitutional
infringement by restricting the range of lobbying
activities are inadequate. Professor Bradley Smith
has explained how, even when the range of bar
lobbying is limited, “the problems inherent in the
unified bar concept” remain. The Limits of
Compulsory Professionalism at 52. For example, the
Michigan Bar’s legislative activity was limited to five
general areas, including “increasing the availability
of legal services to society,” and providing “contentneutral advice to legislators.” See The Limits of
Compulsory Professionalism at 53. But, “none of
th[o]se terms is self-defining.” Id. He notes that such
a limitation “shifts, but does not eliminate, the locus
of questions concerning the political activities of the
bar and the rights of dissenting members.” Id. at 5253.

See Brief of the Missouri Bar as Amicus Curiae in Support of
Appellees and Affirmance, Fleck v. Wetch, Case No. 16-1564, in
the Eighth Circuit Court of Appeals, available at
https://goldwaterinstitute.org/wpcontent/uploads/2019/04/Fleck-Missouri-Bar-AC.pdf;

8

The State Bar of Arizona filed the amicus brief in
support of the State Bar of Oregon in Crowe v. State Bar of
Oregon, No. 19-35463, in the United State Court of Appeals for
the Ninth Circuit (DktEntry 30-1). No announcement of the
filing appears on the Arizona Bar’s website (azbar.org), or on the
website of the law firm that filed the brief (omlaw.com). An
electronic copy is in the possession of counsel of record.

14
Lower courts have been inconsistent in
applying the line between what constitutes political
speech and what is properly chargeable or germane.
In Lehnert v. Ferris Faculty Ass’n, 500 U.S. 507
(1991), this Court held, among other things, that a
union’s public relations campaign aimed at
burnishing the standing of teachers “entailed speech
of a political nature in a public forum” and was not
properly chargeable. Id. at 528-29. The Ninth Circuit,
later followed by the Seventh Circuit, declined to
follow Lehnert in cases involving similar bar
campaigns.
In Gardner v. State Bar of Nevada, 284 F. 3d
1040, 1043 (9th Cir. 2002), the Ninth Circuit deemed
a bar public relations campaign to be “highly germane
to the purposes for which the State Bar exists.” It did
so after acknowledging, “Undoubtedly every effort to
persuade public opinion is political in the broad sense
of the word.” Id. at 1042-43. The court explained that
the campaign helped to “dispel the notion that
lawyers are cheats or are merely dedicated to their
own self-advancement or profit.” Id. at 1043. The
campaign served vague State bar interests: “to
advance understanding of the law, the system of
justice, and the role of lawyers, as opposed to
nonlawyers, to make the law work for everyone.” Id.
The Seventh Circuit followed the Ninth Circuit
in disregarding one of Lehnert’s holdings. The court
concluded, “It is no infringement of a lawyer’s First
Amendment freedoms to be forced to contribute to the
advancement of the public understanding of the law.”
Kingstad, 622 F. 3d at 720 (quoting Gardner, 284 F.
3d at 1043); see also id. at 721 (“T]he State Bar’s

15
public relations campaign was germane to the Bar’s
constitutionally legitimate purpose of improving the
quality of legal services available to the Wisconsin
public.”). In contrast to the “exacting” scrutiny
mandated by Janus, the court’s review was
“deferential:” it found no need for a trial “that would
scrutinize either the subjective motives of bar leaders
or the actual effectiveness of the public image
campaign;” and the test was not necessity, but rather
reasonableness. Id. at 718-19.
The First Circuit found a unified bar
association requirement that all bar members
purchase life insurance from the association’s
program was not germane to the bar association’s
purposes. Romero v. Colegio de Abogados de Puerto
Rico, 204 F. 3d 291 (1st Cir. 2000). The court
observed, “The costs of that insurance are far from
negligible; in some years the life insurance premium
has constituted 72% of the dues.” Id. at 293.
Gardner, Lambert, and Romero come from the
days when the courts looked at germaneness. Now,
the courts should employ exacting scrutiny. Each
though, illustrates how the unified bars thought they
should spend their members’ dues.
B. The Hudson remedy is inadequate.
As noted above, remanding objecting lawyers
to a Hudson-like process of claiming a refund puts the
burden on the objectors and fails to examine the legal
basis for the bar’s claim. The results are also hardly
worth the effort.

16
As Professor Bradley Smith explains, after the
Florida Supreme Court trimmed the Florida Bar’s
sails by limiting its lobbying activities to five subject
areas, the number of objectors was “relatively small.”
The Limits of Compulsory Professionalism at 51,54.
Among the reasons for that paucity of objections was
“the rather paltry size of the rebate,” which was $8.52
plus interest in 1993. Id.at 54 and n. 113; see also
Appendix, Fleck v. Wetch, No.19-670, in the Supreme
Court of the United States, at 10a (“OPTIONAL:
Keller deduction relating to non-chargeable activities.
Members wanting to take this deduction may deduct
$10.07 if paying$380; $8.99 if paying $350; and $7.90
if paying $325.”). Those Fleck numbers reflect a
return of some 2-3% of the annual dues.
Recall that, in Lathrop in 1961, Mr. Lathrop
was objecting to a $15 annual assessment. See 367
U.S. at 822. Now, even after deductions allowed in
some jurisdictions, much more money goes to the
unified bar in the form of member dues. Even if the
transition to a bifurcated bar led to a decrease in bar
membership, the resulting decrease might be offset by
reductions in administrative costs, ending services to
the lawyers who opted out, and saving the cost of
Keller-driven fights and rebates. The Limits of
Compulsory Professionalism at 60.

17
IV. Neither Keller nor Lathrop are essential to
the unified state bars’ performance of their core
functions.
In 1994, Bradley Smith observed, “The
advantages of coerced membership in a state bar have
always been more rhetorical than real.” The Limits of
Compulsory Professionalism at 58. He goes on to
examine the claims that unified bars have more
resources and provide greater benefits to the public
and members, finding the arguments lacking.
Smith notes that voluntary bar associations
have developed other sources of revenue and have
generally retained more than 70% of the State’s
lawyers. Id. at 59. Smith explains, “Where dues are
mandatory, lawyers may view the bar as a taxing
authority, to which the less paid the better.” Id. at 60.
In the same way, claims that the unified bar
provides “better consumer protection and regulatory
innovation, improved delivery of legal services,
including pro bono work, and better lawyer discipline”
are without merit. Id. at 61. Voluntary bar
associations first adopted client security funds and
continuing legal education programs. Id. Moreover,
“who could ever seriously suggest that pro bono legal
services for the poor and indigent are more readily
available in Michigan, with its mandatory bar, than
in Ohio or the other voluntary bar states surrounding
Michigan?” Id. Furthermore, the state can effectively
take responsibility for attorney discipline from the
otherwise autonomous trade association, and “there
are public policy reasons to prefer that it do so.” Id. at
62. The state is less likely to apply discipline for “anti-

18
competitive or other illegitimate reasons” or
“unreasonably seek to protect members from
punishment or exposure.” Id. at 63. In short, the
unified bar has been a “disappointment” when it
comes to providing better public benefits. Id. at 61.
The solution is to apply Janus’s requirement
that no funds be extracted by bars in support of
inherently political speech without clear and
affirmative consent. Janus, 138 S. Ct. at 2486. This
can be (and has been) accomplished by breaking the
unified bar into two parts: a voluntary bar that can
act without regard to Keller’s limitations and a
mandatory association to perform core regulatory
functions.
In 2013, the Supreme Court of Nebraska
limited the use of mandatory dues to the regulation of
the legal profession, identifying six functions of that
regulation, and called for “the remaining activities of
the Bar Association [to] be financed solely by
revenues other than mandatory assessments.” In re
Petition for a Rule Change to Create a Voluntary State
Bar of Nebraska, 841 N.W. 2d 167, 179 (Neb. 2019).
The California Bar split into two entities in 2018,
when the bar’s sections and other trade associationlike activities were spun off into a voluntary entity.
That voluntary association is free to advocate for and
against state legislation without being limited by
Keller. See Lyle Moran, California Split: 1 Year After
Nation’s Largest Bar Became 2 Entities, Observers See
Positive Change, ABA Journal, Feb. 2019.
As Bradley Smith notes, “to the extent that
efficient bar association administration and a strong
legislative program are beneficial to the private bar,

19
unification is a handicap, not a strength.” The Limits
of Compulsory Professionalism at 64. He explains, “In
a voluntary bar state, … the state can directly assume
its proper regulatory functions aimed at protecting
the public interest. Voluntary bar associations are
then free to tend to the broader issues of improving
professional standards, and to promoting voluntary
pro bono, educational, and other programs.” Id. at 63.
Getting to a bifurcated bar requires reversing
both Keller and Lathrop. Reversing Keller would be
just Abood’s second shoe dropping; Keller relied on it
and, in application, suffers from the same defects.
Lathrop is the source of the mischief in that it
authorizes compelling lawyers to become members of
the unified bar. It thereby takes away from them their
First Amendment right to refrain from associating.
Smith concludes that “a return to a voluntary
bar is in the best interests of both lawyers and the
public.” The Limits of Compulsory Professionalism at
73. This case offers the Court an opportunity to
eliminate a First Amendment outlier.

20
CONCLUSION
For the reasons stated in the Petition and this
amicus brief, this Court should grant the writ of
certiorari and, on review, reverse the decision of the
Court of Appeals for the Seventh Circuit.
Respectfully submitted,
John J. Park, Jr.

Counsel of Record for Amicus Curiae
616-B Green Street
Gainesville, GA 30501
470.892.6444
jjp@jackparklaw.com
Robert Alt
President and CEO

The Buckeye Institute

88 East Broad Street
Suite 1300
Columbus, Ohio 43215
614.224.4422

